HHS/OIG-Audit-"Review of Hutchinson Rural Health Clinics,"(A-07-00-00118)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Hutchinson Rural Health Clinics," (A-07-00-00118)
May 10, 2001
Complete
Text of Report is available in PDF format (2.47 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit entitled, "Review of Hutchinson
Rural Health Clinics." The purpose of our audit was to determine whether there
were improper Medicare payments made to the Hutchinson Clinics or their physicians.
We reviewed cost reports for the period January 1, 1997 through December 31,
1999. We identified $87,493 in excess Medicare payments. We recommended refund
of the $87,493. We also recommended that Hutchinson Clinics ensure costs are
correctly allocated in the cost report.